                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-285




   Community Based Outpatient

           Clinic Reviews

                  at

 Charlie Norwood VA Medical Center

            Augusta, GA





August 19, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                CBOC Reviews at Charlie Norwood VAMC



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       CPRS     Computerized Patient Record System
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       MSEC     Medical Staff Executive Committee
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       NC       noncompliant
                       OIG      Office of Inspector General
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                              CBOC Reviews at Charlie Norwood VAMC



                                            Table of Contents

                                                                                                                            Page

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics.............................................................................................               7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 7 Director Comments ...............................................................................                    12

  B. Charlie Norwood VAMC Director Comments.....................................................                                 13

  C. OIG Contact and Staff Acknowledgments .........................................................                             17

  D. Report Distribution.............................................................................................            18





VA OIG Office of Healthcare Inspections
                                                           CBOC Reviews at Charlie Norwood VAMC



                                Executive Summary

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the CBOCs during the week of June 10, 2013.

The review covered the following topic areas:

   WH

   Vaccinations

   C&P

   EOC

   Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the respective parent facilities.
The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs (see Table 1).

    VISN                Facility              CBOC Name                     Location
                Charlie Norwood                   Aiken                    Aiken, SC
       7
                VAMC                              Athens                   Athens, GA
                                     Table 1. Sites Inspected

Review Results: We made recommendations in three review areas.
Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

   Ensure that patients with normal cervical cancer screening results are notified of
    results within the defined timeframe and that notification is documented in the EHR.

   Ensure that clinicians administer pneumococcal vaccinations when indicated.

   Ensure that clinicians document all required tetanus and pneumococcal vaccination
    administration elements and that compliance is monitored.

   Ensure fire drills are completed as required at the Aiken and Athens CBOCs.

   Ensure that fire extinguisher signage is installed at the Aiken CBOC as required.



VA OIG Office of Healthcare Inspections                                                      i
                                                   CBOC Reviews at Charlie Norwood VAMC


   Ensure that testing of the panic alarm system is documented at the Aiken CBOC.

   Ensure patient privacy is respected at the Athens CBOC.

Comments
The VISN and Facility Directors agreed with the CBOC review findings and
recommendations and provided acceptable improvement plans. (See Appendixes A–B,
pages 12–16, for the full text of the Directors’ comments.) We will follow up on the
planned actions until they are completed.




                                                   JOHN D. DAIGH, JR., M.D.

                                                  Assistant Inspector General for

                                                     Healthcare Inspections





VA OIG Office of Healthcare Inspections                                              ii
                                                                  CBOC Reviews at Charlie Norwood VAMC



                                  Objectives and Scope

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19. 1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004.



VA OIG Office of Healthcare Inspections                                                               1
                                                                      CBOC Reviews at Charlie Norwood VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOCs. Two CBOCs were randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                 2
                                                                                                                 CBOC Reviews at Charlie Norwood VAMC



                                                               CBOC Profiles

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data for
patients enrolled at all of the CBOCs under the parent facility’s oversight.5 The table below provides information relative to each
of the CBOCs under the oversight of the respective parent facility.

                                                                                                       Uniques,             Visits,
VISN            Parent Facility                    CBOC Name                     Locality6                                                 CBOC Size9
                                                                                                       FY 20127            FY 20128
                                                        Aiken
                                                                                    Urban                2,933              13,624           Mid-Size
                                                     (Aiken, SC)
    7      Charlie Norwood VAMC
                                                       Athens
                                                                                    Rural                4,219              20,664           Mid-Size
                                                    (Athens, GA)
                                                                Table 2. CBOC Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
   Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).



VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                   CBOC Reviews at Charlie Norwood VAMC



                     WH and Vaccination EHR Reviews

                      Results and Recommendations

WH
Cervical cancer is the second most common cancer in women worldwide. 10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 34 patients who received a cervical cancer screening at the Charlie
Norwood VAMC’s CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 34 EHRs of patients who had normal cervical cancer
screening results and determined that 5 patients were not notified within the required 14
days from the date the pathology report became available.



10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010.



VA OIG Office of Healthcare Inspections                                                                        4
                                                                 CBOC Reviews at Charlie Norwood VAMC


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against diseases such as tetanus and pneumococcal.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

       NC                                       Areas Reviewed
                    Staff screened patients for the tetanus vaccination.
                    Staff administered the tetanus vaccine when indicated.
                    Staff screened patients for the pneumococcal vaccination.
        X           Staff administered the pneumococcal vaccine when indicated.
        X           Staff properly documented vaccine administration.
                    Managers developed a prioritization plan for the potential occurrence of
                    vaccine shortages.
                                          Table 4. Vaccinations

Pneumococcal Vaccination Administration. The CDC recommends that at the age of
65 clinicians administer the pneumococcal vaccination.14 We reviewed the EHRs of
eight patients and did not find documentation in two of the EHRs that the pneumococcal
vaccination had been administered.

Documentation of Vaccinations.      Federal Law requires that documentation for
administered vaccinations include specific elements, such as the vaccine manufacturer
and lot number of the vaccine used.15 We reviewed the EHRs of six patients who

13
   VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.

14
   Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.

15
   Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.



VA OIG Office of Healthcare Inspections                                                                     5
                                                    CBOC Reviews at Charlie Norwood VAMC


received a tetanus vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to tetanus vaccine
administration in any of the EHRs. We reviewed the EHRs of 28 patients who received
a pneumococcal vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to pneumococcal
vaccine administration in any of the EHRs. During the site visit, the facility drafted a
corrective plan of action to address these identified areas of needed improvement.

Recommendations

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

3. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.




VA OIG Office of Healthcare Inspections                                                6
                                                                  CBOC Reviews at Charlie Norwood VAMC



                                 Onsite Reviews

                          Results and Recommendations

 CBOC Characteristics
 We formulated a list of CBOC characteristics that includes identifiers and descriptive
 information for the randomly selected CBOCs (see Table 5).

                                            Aiken                                 Athens
     VISN                                      7                                     7

     Parent Facility               Charlie Norwood VAMC                   Charlie Norwood VAMC
     Types of Providers         Licensed Clinical Social Worker        Licensed Clinical Social Worker
                                       Nurse Practitioner                     Nurse Practitioner
                                    Primary care Physician                 Primary Care Physician
                                          Psychiatrist                           Psychiatrist
                                                                                Psychologist
     Number of MH
                                              701                                  1,196
     Uniques, FY 2012
     Number of MH Visits,
                                             4,073                                 7,812
     FY 2012
     MH Services Onsite                       Yes                                   Yes
     Specialty Care
                                              WH                                    WH
     Services Onsite
     Ancillary Services             Electrocardiogram                       Electrocardiogram
     Provided Onsite                    Laboratory                              Laboratory
     Tele-Health Services                   MH                                  Cardiology
                                         MOVE16                                     MH
                                      Retinal Imaging                             MOVE
                             Care Coordination Home Telehealth                Retinal Imaging
                                                                                  Surgery
                                                                               Wound Care
                                                                     Care Coordination Home Telehealth
                                          Table 5. Characteristics




16
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31 2011


VA OIG Office of Healthcare Inspections                                                                  7
                                                         CBOC Reviews at Charlie Norwood VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.17 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the MSEC.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the MSEC.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or MSEC list
                         documents reviewed and the rationale for conclusions reached for
                         granting licensed independent practitioner privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice activities.
                                          Table 6. C&P

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

17
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                    8
                                                        CBOC Reviews at Charlie Norwood VAMC


EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
CBOCs identified as NC needed improvement. Details regarding the findings follow the
table.

        NC                                     Areas Reviewed
                    The CBOC was American Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
      Aiken
                    There was evidence of fire drills occurring at least annually.
      Athens
      Aiken         Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                     The alarm system or panic button(s) installed in high-risk areas was
       Aiken
                     tested.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
      Athens        Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.
                    Safety needle devices were available for staff use (e.g., lancets,
                    injection needles, phlebotomy needles).



VA OIG Office of Healthcare Inspections                                                   9
                                                             CBOC Reviews at Charlie Norwood VAMC


        NC                                  Areas Reviewed (continued)
                    The CBOC was included in facility-wide EOC activities.
                                            Table 7. EOC

Fire Safety. The Joint Commission requires fire drills be conducted at least annually.18
The Aiken and Athens CBOCs exceeded the 12-month requirement for completing fire
drills, 15 months and 18 months, respectively.

Fire Extinguishers. The National Fire Protection Association Life Safety Code requires
identification of fire extinguisher locations when they are obscured from view.19 The
Aiken CBOC had no signage identifying the location of fire extinguishers. Four fire
extinguishers were recessed in an exit alcove obscured from view.

Panic Alarms. VHA policy requires that facilities implement, utilize, and regularly test
appropriate physical security precautions and equipment to include, as appropriate,
security surveillance television, computer-based panic alarm systems, stationary panic
alarms, electronic personal panic alarms.20 The Aiken CBOC provides MH services and
has panic alarms. We did not find documentation that staff tested the panic alarm
system.

Patient Privacy. The Joint Commission requires that the hospital respect the patient’s
right to privacy when seeking medical care.21 Six exam rooms at the Athens CBOC did
not have privacy curtains and had the foot of exam tables facing the entry door without
the installation of privacy curtains.

Recommendations

4. We recommended that the facility ensures fire drills are completed as required at the
Aiken and Athens CBOCs.

5. We recommended that fire extinguisher signage is installed at the Aiken CBOC as
required.

6. We recommended that testing of the panic alarm system is documented at the Aiken
CBOC.

7. We recommended that the facility ensures patient privacy is respected at the Athens
CBOC.




18
   JC.EC.02.03.01 & JC.EC.02.03.03 EP5

19
   National Fire Protection Association, Standard for Portable Fire Extinguishers, 10 6.1.3.3.1.

20
    VHA Directive 2012-026, Sexual Assaults & Other Defined Public Safety Incidents in VHA Facilities,

September 27, 2012.

21
   JC.RI.01.01.01, EP7.



VA OIG Office of Healthcare Inspections                                                            10
                                                        CBOC Reviews at Charlie Norwood VAMC


Emergency Management

VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.22 Table 8 shows the areas
reviewed for this topic.

          NC                                      Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.

                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                 Table 8. Emergency Management

All CBOCs were compliant with the review areas; therefore, we made no
recommendations.




22
     VHA Handbook 1006.1.


VA OIG Office of Healthcare Inspections                                                  11
                                             CBOC Reviews at Charlie Norwood VAMC
                                                                        Appendix A
                            VISN 7 Director Comments




VA OIG Office of Healthcare Inspections                                        12
                                          CBOC Reviews at Charlie Norwood VAMC
                                                                     Appendix B
              Charlie Norwood VAMC Director Comments




VA OIG Office of Healthcare Inspections                                     13
                                                      CBOC Reviews at Charlie Norwood VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the defined timeframe and that notification
is documented in the EHR.

Concur

An excel data base has been established to verify that normal cervical cancer screening
results have been communicated to patients within 14 days. The EHR will be reviewed
for documentation of patient notification and compliance to the defined timeframe.
Compliance will be tracked with a sustained goal of 90 percent. Continued compliance
will be the responsibility of the Women’s Health Manager or designee. The VISN 7
corporate data warehouse quality management team will work with Augusta to develop
an automated process for ensuring timely communication of screening results and
medical record documentation.

Target Date: November 30, 2013

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Using the National Center for Health Promotion and Disease Prevention guidance on
the administration of vaccines for veterans, a mandatory reminder and tracking system
in the EHR system has been implemented to identify eligible patients. Eligible patients
who have not received the pneumococcal vaccination will be identified and contacted by
phone or letter. Continued compliance will be the responsibility of the Clinical/Medical
director or designee for ongoing documentation. Random audits will be conducted for
the patients eligible for pneumococcal vaccinations according to the CDC
recommendations with a goal of 90 percent sustained compliance. The VISN 7 chronic
disease knowledge management unit of the quality management team has developed a
corporate data site where 100 percent of patients who require pneumococcal
vaccinations will be identified and tracked.

Target Date: November 30, 2013

3. We recommended that managers ensure that clinicians document all required
tetanus and pneumococcal vaccination administration elements and that compliance is
monitored.



VA OIG Office of Healthcare Inspections                                                  14
                                                       CBOC Reviews at Charlie Norwood VAMC


Concur

On June 11, 2013, revisions were made to the existing vaccine administration template
in CPRS to include areas for clinicians to document the vaccine information sheet (VIS)
edition date, manufacturer and lot number to meet all of the required information for
vaccinations. CBOC staff were inserviced on the elements required. The new screens
were verified to include all elements and are now designed as mandatory fields.
Random audits will be conducted for required elements for tetanus and pneumococcal
vaccines according to CDC recommendations with a goal of 90 percent sustained
compliance. VISN 7 clinical reminders team will make the required corrections to the
CPRS clinical reminder to ensure that all elements are documented.

Target Date: November 30, 2013

4. We recommended that the facility ensures fire drills are completed as required at the
Aiken and Athens CBOCs.

Concur

The CBOC facilities have scheduled fire drills on a 12 month schedule not to exceed 30
days from the due date of the last drill. An electronic calendar notification system has
been developed to ensure compliance and tracking. Continued monitoring and
compliance will be the responsibility of the Safety Officer or designee. A fire drill was
conducted at Aiken CBOC on June 11th and the Athens drill is on schedule and in
compliance.

Completed

5. We recommended that fire extinguisher signage is installed at the Aiken CBOC as
required.

Concur

Prominently displayed fire extinguisher signage in the hallway of Aiken CBOC has been
installed in the areas of limited visibility to ensure the location of the fire extinguishers
can be easily seen.

Completed

6. We recommended that testing of the panic alarm system is documented at the Aiken
CBOC.

Concur

The Aiken CBOC has a Panic Alarm electronic system and regularly tests the system.
To ensure tests are documented monthly, a tool has been developed and implemented.
The Panic Alarm testing for this month occurred on July 17th and results have been



VA OIG Office of Healthcare Inspections                                                   15
                                                    CBOC Reviews at Charlie Norwood VAMC


recorded in the log. An audit of the log will be reviewed monthly and tracked for
compliance by the Facility Safety Officer for all CBOCs.

Target Date: November 30, 2013

7. We recommended that the facility ensures patient privacy is respected at the Athens
CBOC.

Concur

Until a new location for the Athens CBOC is determined, privacy screens have been
ordered and will be available in the provider rooms currently not equipped with a privacy
curtain.

Target Date: August 31, 2013




VA OIG Office of Healthcare Inspections                                               16
                                                      CBOC Reviews at Charlie Norwood VAMC
                                                                                 Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Toni Woodard, BS, Project Leader
Contributors            Tishanna McCutchen, ARNP, MSN, Team Leader
                        Charles H. Cook, MHA
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Patrick Smith, M. Stat
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  17
                                                  CBOC Reviews at Charlie Norwood VAMC
                                                                             Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 7 (10N7)
Director, Charlie Norwood VA Medical Center (509/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Saxby Chambliss, Lindsey Graham, Johnny Isakson, Tim Scott
U.S. House of Representatives: John Barrow, Paul C. Broun, Doug Collins, Joe Wilson


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                             18
